GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

September 8, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 20-222, Goldman Sachs Group, Inc. v. Arkansas Teacher Retirement System
Dear Mr. Harris,
I am writing on behalf of respondents to request an extension of time in which to file the
opposition to the petition for a writ of certiorari in this case. The petition was filed on August 21,
2020, and the response is currently due on September 24, 2020. I am requesting a 29-day
extension, through October 23, 2020. An extension of that length will permit counsel for
respondents to review and respond to the petition and is necessary due to the press of other business
before this Court and other courts.
Please let me know if you require any further information. Thank you very much for your
time and assistance.
Very truly yours,

Kevin K. Russell

cc: Petitioners’ counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

